  Office of Inspector General




INSPECTOR GENERAL REVIEW OF FISCAL
 YEAR 2013 DRUG CONTROL FUNDS AND
 PERFORMANCE SUMMARY REPORTING
       Federal Aviation Administration

         Report Number: FI-2014-028
        Date Issued: January 31, 2014
U.S. Department of                                             Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation

January 31, 2014

Ms. Michele Marx
Acting Associate Director, Office of Performance and Budget
Office of National Drug Control Policy
750 17th Street, N.W.
Washington, DC 20503

Dear Ms. Marx:

This report presents the results of our independent review of the U.S. Department
of Transportation, Federal Aviation Administration’s (FAA) fiscal year 2013 Drug
Control Obligation Summary and Performance Summary reports to the Office of
National Drug Control Policy (ONDCP). Both reports were received on
January 29, 2014. The reports and our review are required by 21 U.S.C. §1704 (d)
and ONDCP’s Circular, Accounting of Drug Control Funding and Performance
Summary (Circular) of January 2013.

The Circular states that when drug-related obligations total less than $50 million
and a detailed accounting would constitute an unreasonable burden, agencies are
permitted to submit alternative reports. Because FAA’s fiscal year 2013
drug-related obligations totaled less than $50 million, FAA submitted an
alternative report. In our attestation review, we reviewed FAA’s report and related
management assertions to determine the reliability of those assertions in
compliance with the Circular, in all material respects. We conducted our review in
accordance with generally accepted Government auditing standards for attestation
engagements. However, a review is substantially more limited in scope than an
examination, which expresses an opinion on the accuracy of FAA’s Drug Control
Obligation Summary and Performance Summary reports. Because we conducted
an attestation review, we do not express such an opinion.

Drug Control Obligations Summary

We performed review procedures on FAA’s fiscal year 2013 Drug Control
Obligation Summary (Enclosure 1) according to the criteria in the Circular. We
limited our work to inquiries and analytical procedures appropriate for an
attestation review. Specifically, we tested selected accounting internal controls to


Report Number FI-2014-028
                                                                                  2


ensure drug control funds were properly identified in the accounting system. We
traced $17.1 million of FAA’s reported $27.1 million in drug control obligations
to the Department of Transportation’s accounting system.

Performance Reporting Summary and Assertions

FAA’s fiscal year 2013 performance targets were to: (1) initiate regulatory
investigations on 95 percent of all pilots involved in the sale or distribution of
illegal drugs within 30 days of knowledge, notification by law enforcement, or a
conviction; (2) ensure the aviation industry conducts random drug and alcohol
testing of safety sensitive employees with results not exceeding 1 percent positives
for drugs and 0.5 percent positives for alcohol; and, (3) conduct 1,647 drug and
alcohol inspections of the aviation industry to ensure compliance with Federal
regulations. FAA indicated that it met all three performance targets.

We performed review procedures on FAA’s fiscal year 2013 Performance
Summary Report (Enclosure 2), and management’s assertions. We limited our
review processes to inquiries and analytical procedures appropriate for an
attestation review according to the criteria in the Circular. Specifically, we
reviewed FAA’s internal controls for performance measures to gain an
understanding of how the measures were developed.

During our review, no information came to our attention that the accompanying
FAA fiscal year 2013 Drug Control Obligation Summary and Performance
Summary reports were not presented in conformity with the ONDCP Circular.

Sincerely,



Louis C. King
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure(s)

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100




Report Number FI-2014-028
                           Assistant Administrator for Financial Services and   800 Independence Ave, SW
                           Chief Financial Officer                              Washington, DC 20591




Ms. Michele Marx
Acting Associate Director
Office of the National Drug Control Policy
Washington, DC 20503

Dear Ms. Marx:

In accordance with the Office of National Drug Control Policy Circular: Drug Control
Accounting issues January 18, 2013, the Federal Aviation Administration’s (FAA) Fiscal Year
2013 Drug Control Obligation Summary is enclosed. FAA’s obligations for drug-related
activities fall below the reporting threshold of $50 million; therefore, only a limited report is
required to satisfy the statutory requirement.

FAA’s point of contact for this report is Lilly Emmet. She can be reached at (202) 267-3765,
if further assistance is required.


Sincerely,




Mark House
Chief Financial Officer

Enclosure
                                     Obligations Summary
                               DEPARTMENT OF TRANSPORTATION
                              FEDERAL AVIATION ADMINISTRATION
                                       ($ in thousands)

RESOURCE SUMMARY

                                                                     FY 2013
                                                                    Obligations
Drug Resources by Budget Decision Unit and Function:

    Decision Unit: Air Traffic Organization
    Total, Air Traffic Organization                             $        9,999.00


    Decision Unit: Aviation Safety/Aerospace Medicine
       Prevention                                               $       14,553.07
    Total, Aviation Safety/Aerospace Medicine                   $       14,553.07


    Decision Unit: Security and Hazardous Material Safety
       Intelligence Interdiction & State/Local Assistance       $        2,537.97
    Total, Security and Hazardous Material Safety               $        2,537.97

    Total Funding                                               $       27,090.04

Drug Resources Personnel Summary
    Total FTEs (direct only)                                                  163
       Air Traffic Organization                                                59
       Aviation Safety/Aerospace Medicine                                      84
           Investigations: Industry Drug Abatement              [              5]
           Prevention: Industry Drug Abatement                  [             63 ]
           Prevention: Internal Substance Abuse Program         [             16 ]
       Security & Hazardous Materials Safety                                   20
                               Assistant Administrator for Financial Services and   800 Independence Ave. SW
                               Chief Financial Officer                              Washington, D.C. 20591




Ms. Michele Marx
Acting Associate Director
Office of the National Drug Control Policy
Washington, DC 20503

Dear Ms. Marx:

In accordance with the Office of National Drug Control Policy Circular: Drug Control
Accounting issued January 18, 2013, the Federal Aviation Administration's (FAA) Fiscal
Year 2013 Performance Summary Report is enclosed. As specified by the Circular, the
Agency selected two performance measures for Aviation Safety (AVS) for FY 2013 and one
performance measure for Security and Hazardous Materials (ASH) for FY 2013 to assess its
success in reducing the prevalence of drug and alcohol-impaired personnel who perform
sensitive duties within the aviation industry and in initiating regulatory action against
airmen involved in the sale or distribution of illegal drugs. Additional metrics are included
in the body of the enclosures for FYs 2008 through 2012. These performance measures
reflect a critical milestone in the goal to promote the safety and security of the National Air
Space (NAS) and the flying public. These performance measures are:

    1. Initiate regulatory investigations on 95% of all airmen involved in the sale or
       distribution of illegal drugs within 30 days of knowledge or a conviction or
       notification by law enforcement (ASH).
    2. Ensure the aviation industry conducts random drug and alcohol testing of safety-
       sensitive employees with results not exceeding one percent (1%) positives for drugs
       and one-half percent (0.5%) positives for alcohol (AVS).
    3. Conduct 1,647 FAA drug and alcohol inspections of the aviation industry to ensure
       compliance with 14 CFR part 120 and 40 CFR part 49 (AVS).

Assertions
   1. Performance reporting system is appropriate and applied: Performance
       information for the first measure relies on official Agency data residing in the
       Investigations Tracking System (ITS) and Enforcement Information System (EIS) 1.
       Data resident in ITS/EIS includes: the date of the offense, when first known to FAA,
       start date of the action, source of the information, and final sanction.

        For measures two and three, the information relies on surveys conducted by the
        Agency of all part 121 operators and all other employers with 50 or more safety-sensitive
        employees. The latter provide to FAA annual report of their testing results. The
        remaining employers with 49 or fewer safety-sensitive employees are randomly chosen to
        submit an annual report.

1
  ITS and EIS are FAA's system for tracking investigations and information about enforcement actions for
statutory or regulatory violations.
                                                                                            2

       No performance measure was reported for one of the three Lines of Business because
       its work structure does not lend itself to the development and tracking of such
       metrics and is not cost-effective to the government to do so. Consequently, FAA will
       work with ONDCP to develop a measure beneficial and cost effective to both
       organizations. Additional information can be found in enclosures.

   2. Explanations for not meeting performance targets are reasonable: Targets met.

   3. Methodology to establish performance targets is reasonable and applied: Data
      collection for the first measure is based on official FAA databases. For the last two
      measures, the Department of Transportation (DOT) requires the Agency to determine
      these measures using the Drug and Alcohol Management Information System
      (DAMIS) reporting. Due to the reporting methodology, this sampling of DAMIS
      reporting is always one calendar year behind. Additional information can be found in the
      enclosed Summary Reports.

   4. Adequate performance measures exist for all significant drug control activities:
      The measures used to describe the Agency's performance adequately reflect key steps
      toward the prevention and detection of drug related activities in the NAS. These
      measures provide a meaningful assessment of progress toward the development of
      safe and reliable airspace.


FAA's points of contact for this report are as follows:

             ASH: Elaine K. Stone-Arthur, (202) 385-4890

             AVS: Mark Adams, (202) 267-3169

             ATO: Ernest Barber, (202) 385-8499



Sincerely,




Mark House,
Chief Financial Officer

Enclosures
                                                 Federal Aviation Administration
                                               Law Enforcement Assistance Program
                                                  Performance Summary Report
                                                         Fiscal Year 2013
(1) Performance Measure

The Federal Aviation Administration’s (FAA) Law Enforcement Assistance Program (LEAP) contributes
to the National Drug Control Strategy by reducing access to the National Airspace System (NAS) by
Airmen known to the FAA to be involved in the sale or distribution of illegal drugs. The FAA will use one
performance measure to assess the effectiveness of the program.

The LEAP Special Agents provide extensive technical and administrative assistance, on a timely and
continuous basis, to all Federal, State, local, tribal, territorial, and international law enforcement agencies
(LEAs) engaged in drug interdiction efforts. They have access to FAA data, not otherwise available to
other agencies, that is critical to the development of investigations on airmen involved in illegal drug
trafficking. The information FAA provides to LEAs assists them in the arrest and conviction of airmen
and/or the seizure of aircraft.

Due to the joint work with LEAs, FAA becomes aware of investigations and information that
enable/support initiation of FAA regulatory enforcement investigations on airman/aircraft suspected of
drug trafficking; in many cases, these investigations result in the revocation of airmen certificates thus
contributing to the safety and security of the NAS.

The performance measure selected reflects a critical milestone in the goal to promote the safety and
security of the NAS and the flying public by restricting access of airmen who have violated statutory and
regulatory requirements for maintaining an airman certificate. The performance measure being used is a
valid and reliable method for capturing the efforts put forth in this area.

The ASH LEAP program will use the following measure to assess progress of the LEAP Program:
• Initiate regulatory investigations on 95% of all airmen involved in the sale or distribution of illegal
   drugs within 30 days of knowledge of a conviction or notification by law enforcement.

    (2) Prior Year Performance Target and Results

                                                                                 The performance target for FY12 was fully
                                                                                 achieved. FAA LEAP Special Agents initiated
                        Airman Investigations                                    100% of investigations regarding airmen
                        Drug Related Offenses                                    involved in the sale or distribution of illegal
                               FY12                                              drugs within 30 days. In FY12 FAA Special
                   4%
                                                                                 Agents initiated 18 regulatory investigations or
                                         40%       REVOCATION                    100% of the airmen brought to the attention of
                                                   SUSPENSION                    ASH within 30 days. FAA also took regulatory
                                                   WARNING NOTICE                action against 56 1 or 88% of the airmen arrested
    57%                                            OTHER/NO ACTION               for drug related offenses, thus impacting their
                                       4%
                                                                                 ability to legally access the NAS. Those
                                                                                 regulatory actions are depicted in the chart to the
                                                                                 left. Significant action was taken in 40% of the
                                                                                time. 2
1
    This includes regulatory action that was finalized from prior year investigations.
                                                                                                                                       1
(3) Current Performance Target

Selected Measures of Performance                                    FY 2013 Target             FY 2013 Achieved
Initiate regulatory investigations on 95% of all                         95%                        100%
airmen involved in the sale or distribution of
illegal drugs within 30 days of knowledge of a
conviction or notification by law enforcement.


                             Airman Investigations                                        FAA Special Agents initiated 10
                             Drug Related Offenses                                        regulatory investigations or 100% of
                                    FY13                                                  airmen brought to the attention of ASH
                                                                                          within four days of knowledge of their
     35%                                                                                  conviction. In FY13 FAA also took
                                                     41%                                  regulatory actions against 41 airmen, 3
                                                              REVOCATION
                                                                                          thus impacting their ability to legally
                                                              SUSPENSION
                                                                                          access the NAS. Those regulatory
                                                              WARNING NOTICE              actions, depicted in the chart to the left,
                                                              NO ACTION                   resulted in significant regulatory action
             16%                       8%                                                 taken against airmen 75% of the time.



(4) Quality of Performance Data

Performance information for the measure relies on official agency data residing in the Investigations
Tracking System (ITS) and Enforcement Information System (EIS). 4 Data resident in ITS/EIS includes:
the date of the offense, when first known to FAA, start date of the action, source of the information, and
final sanction.




2
  For the purposes of this report significant action is defined as revocation/suspension of the airman certificate.
3
  This includes regulatory action that was finalized from prior year investigations.
4
  ITS and EIS are FAA’s system for tracking investigations and information about enforcement actions for statutory or regulatory violations.
                                                                                                                                               2
                         Federal Aviation Administration

                 Industry Drug and Alcohol Testing Program

                          Performance Summary Report

                                   Fiscal Year 2013

(1)Performance Measures

The Federal Aviation Administration (FAA) contributes to the National Drug Control
Strategy by reducing the prevalence of drug and alcohol-impaired personnel from
performing safety-sensitive duties in the aviation industry.

The Department of Transportation (DOT) requires the Agency to determine these
measures using the Drug and Alcohol Management Information System (DAMIS)
reporting. Each year, the FAA conducts a survey of every aviation employer that
employees 50 or more safety-sensitive employees, and a random selection of employers
that employ 49 or fewer safety-sensitive employees. These employers are notified to
report their data showing the number of drug and alcohol tests conducted, and the number
of positive test results, along with other miscellaneous information. Due to the reporting
methodology, this sampling of DAMIS reporting is always one calendar year behind. For
example, employers were required to report all testing they accomplished for calendar
year 2012 by March 15, 2013. In an effort to ensure the most accurate data, the DOT
allows for late submissions until October 12, 2013, at which time no more entries were
allowed. The most current reported data available is for calendar year 2012.

(2) Prior Years’ Performance Targets and Results

The prior year targets for 2008, 2009, 2010, and 2011 were fully achieved. Annual
targets are determined by the DOT and require the positive test results for drugs to be less
than 1.0% and the percentage of positive alcohol tests to be less than 0.5%. The results
for the prior years are as follows:

Calendar Year     Total Drug         Percentage of      Total Alcohol      Percentage of
                  Tests Reported     Positive Drug      Tests Reported     Positive
                                     Tests                                 Alcohol Tests
     2008              199,510           0.588%              53,939            0.123%
     2009              164,356           0.534%              51,480            0.088%
     2010              179,894           0.503%              50,580             0.11%
     2011              191,011           0.462%              50,324            0.097%
(3) Current Performance Targets

Because the methodology requires test reporting to be one calendar year behind, the
current year is considered calendar year 2012. For this calendar year, the total drug tests
reported were 181,804, resulting in 0.456% positive drug tests. The total alcohol tests
reported were 50,124, resulting in 0.132% positive alcohol tests.

(4) Quality of Performance Data

As mentioned previously, the FAA does not require all regulated employers to report
their MIS data. During our compliance inspections of covered employers, our inspectors
verify the data submitted to DAMIS to ensure its integrity. In FY 2013, the Drug
Abatement Division conducted 1,647 inspections.

The following chart indicates the number of employers that reported their data:

Calendar Year          Approximate             Number of           Approximate
                       Number of Total         Reporting Regulated Percentage of
                       Regulated               Employers           Reporting
                       Employers                                   Employers Vs. Total
                                                                   Employers
        2008                 Unknown                  2,340             Unknown
        2009                  7,250                   2,694                37%
        2010                  7,270                   3,240                44%
        2011                  7,200                   3,137                43%
        2012                  7,200                   3,279                45%
                                 ATO Drug-Related Activities

1. The Air Traffic Organization (ATO), as the FAA's operations component, is the country's
   primary air navigation services provider and responsible for the operational control of
   nation's airspace. In addition to supporting the safety and efficiency of aviation for air
   commerce, ATO collaborates with interagency partners to support national defense,
   homeland security, and law enforcement missions. This interagency cooperation includes air
   traffic management (ATM) support to the North American Aerospace Defense Command
   (NORAD), Customs and Border Protection (CBP), and other partners carrying out drug
   control missions in the National Airspace System (NAS).

2. ATM related support to drug control missions includes: a) standard air traffic control (ATC)
   services for government aircraft on missions; b) special handling of those same aircraft,
   specifically including flights performing surveillance; c) facilitation, including ATC tracking
   of suspect flights, of intercept, surveillance, and other missions; and d) identification and
   facilitating the response to suspicious aircraft.

3. The above support for drug control efforts are integral to the daily duties carried out by the
   agency's air traffic controllers, as well as ATO's air traffic security coordinators. This
   operational support is not broken out as separate drug control programs. In many cases, this
   support is provided as routine support to NORAD, or CBP and other LEA partners. The ATO
   personnel involved may not be aware that they are specifically assisting a drug control effort
   versus supporting any other type of defense, homeland security, or law enforcement mission.

ATO's point of contact is Ernest Barber. He can be reached at (202) 385-8499.
